<html>
<title> - PROTECTING AMERICA'S WATER TREATMENT FACILITIES</title>
<body><pre>[Senate Hearing 111-1245]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1245
 
                         PROTECTING AMERICA'S 
                       WATER TREATMENT FACILITIES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
         
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-573 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001            
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 28, 2010
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    21
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    23

                               WITNESSES

Dougherty, Cynthia C., Director, Office of Ground Water and 
  Drinking Water, U.S. Environmental Protection Agency...........    24
    Prepared statement...........................................    26
    Responses to additional questions from Senator Inhofe........    37
Grumbles, Benjamin H., Director, Arizona Department of 
  Environmental Quality..........................................    50
    Prepared statement...........................................    52
    Responses to additional questions from Senator Inhofe........    58
Orum, Paul, Blue Green Chemical Security Coalition, Independent 
  Consultant to Center for American Progress.....................    59
    Prepared statement...........................................    61
    Responses to additional questions from Senator Inhofe........    74
Perea, Carlos, Chief Executive Officer, MIOX Corporation.........    79
    Prepared statement...........................................    81
    Response to an additional question from Senator Inhofe.......    92
Sivin, Darius D., Ph.D., Legislative Representative, 
  International Union, United Automobile, Aerospace and 
  Agricultural Implement Workers of America (UAW)................    94
    Prepared statement...........................................    96
    Responses to additional questions from Senator Inhofe........   129

                          ADDITIONAL MATERIAL

Letter from the National Association of Clean Water Agencies to 
  Senators Boxer and Inhofe, August 3, 2010......................   138


            PROTECTING AMERICA'S WATER TREATMENT FACILITIES

                              ----------                              


                        WEDNESDAY, JULY 28, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 2:40 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Frank R. 
Lautenberg (Acting Chairman of the full Committee) presiding.
    Present: Senators Lautenberg, Inhofe, Cardin, and Udall.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, everyone, for being here to 
examine the security at our Nation's water treatment 
facilities.
    Five years ago a train crashed in South Carolina, causing a 
release of chlorine gas that killed 9 people and sent 58 others 
to hospitals. The fact is, chlorine gas is a deadly substance. 
And yet it is currently used at about 2,600 drinking water and 
wastewater treatment plants across the country. That makes 
these water facilities and the trains carrying chlorine to them 
attractive targets for terrorists. Yet, current law does not 
provide adequate regulatory authority or resources for securing 
water treatment plants and reducing their use of lethal 
chemicals.
    Now this morning the Senate Homeland Security Committee 
reported out a bill that merely extends existing minimal 
protections against attacks on chemical facilities, not water 
facilities. And that leaves it up to this Committee to address 
what both the EPA and the Department of Homeland Security have 
called a serious gap in our country's defenses--the lack of 
protections against an attack on water treatment facilities.
    Millions of Americans are at risk because so many drinking 
and wastewater treatment plants use chlorine gas and other 
lethal chemicals. In fact, an attack on one or more of the more 
than 700 facilities would put up to 100,000 people at risk. And 
based on information compiled by the EPA, just a single attack 
at one of the 15 highest risk plants could put more than 1 
million Americans at risk. And we cannot forget the pilots who 
trained Mohammed Atta, the kingpin of the September 11th 
attacks, said that he had shown a keen interest in chemical 
plants and water reservoirs.
    So, we have to do everything possible to keep Americans 
safe from future terrorist attacks. And that is why I have 
introduced the Senate Secure Water Facilities Act. This bill 
would require water treatment plants to assess vulnerability to 
attack and make a plan to address these vulnerabilities and 
develop a system for responding to an emergency. It also 
requires plants to consider safer ways of doing business and in 
many circumstances implement those safer alternatives.
    Now, we know that many facilities could adopt safer 
chemicals and processes because more than 500 drinking water 
and wastewater plants across the country already stopped using 
deadly substances and dangerous methods. These changes have 
made more than 40 million Americans safer.
    Now, my bill encourages more of our country's water plants 
to join this effort. But it does not propose a one size fits 
all approach. It takes into account the situation on the ground 
at each plant and provides States with flexibility to make the 
right choices for their specific situations. It zeros in on 
plants where it is clear that switching to safer chemicals and 
safer methods is cost effective and completely feasible. And it 
helps facilities offset the costs of reducing these securities 
by providing Federal grants.
    I first introduced chemical security legislation in 1999, 
before the September 11th attacks, and once again in 2005 with 
then-Senator Obama. The legislation that I have introduced this 
year reflects the principles of President Obama's 
administration. It has also been endorsed by a diverse array of 
more than 100 environmental, health, labor, and business 
groups.
    Now, it has been almost 9 years since the September 11th 
attacks. And if we learned one thing on that fateful day it is 
this: we dare not become complacent, and we cannot let our 
guard down.
    I look forward today to hearing from our witnesses about 
the state of security at water treatment facilities and how we 
can better protect Americans from a future terrorist attack.
    Once again, I thank all of you for being here. And I am 
pleased to introduce, to call on my Ranking Member here, 
Senator Inhofe, for his opening statement.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Let me clarify something first. I am not blaming anyone, 
but this hearing is not a hearing on your legislation. Is that 
correct?
    Senator Lautenberg. That is true, sir.
    Senator Inhofe. OK. That is fine because, you know when I 
had the notice of the hearing this is supposed to be a general 
oversight hearing for water security. That sounds good to me.
    And I thank you for holding the oversight hearing on the 
water security and look forward to hearing from our witnesses 
about the steps that the EPA and the States have been taking 
since we passed the 2002 Bioterrorism Act. We both remember 
that well. I know that many of our facilities are much safer as 
a result of our actions here. But there is still more that can 
be done. I think we can agree on that.
    As I noted in our December drinking water oversight 
hearing, there is one thing that everyone in this room can 
agree on, and that is having clean, safe, affordable water is a 
national priority. My message has always been that chemical 
security and water security are issues of security, not 
environmental protection.
    Yet whenever we discuss these issues in this Committee, we 
focus on inherently safer technology, or IST. IST is an 
environmental and an engineering concept, not a security 
concept. Environmental activists have been promoting the 
concept of IST for years because it would allow them to 
eliminate the use of chemicals that they do not like.
    IST dates back more than a decade when Greenpeace and other 
groups were seeking bans on chlorine, which was the chemical 
used to purify water that has been hailed by the CDC as one of 
the greatest public health achievements of the 20th century. 
Only after 9/11 did environmental groups decide to play upon 
the fears of the Nation and repackage IST as a panacea to all 
of our security problems.
    I would like to share with you this excellent clarification 
of IST from Stephen Poorman. He was at the Homeland Security 
hearing on chemical security in March. And this is a quote from 
Stephen Poorman. He said `` IST is premised on the belief that 
if a particular chemical process hazard can be reduced, the 
overall risk associated with that process will also be reduced. 
It is an elegant concept, but the reality is almost never that 
simple. A reduction of hazard will reduce overall risk if and 
only if that hazard is not displaced to another time or 
location or result in the creation of some new hazard.'' That 
was the end of the quote.
    I think this is especially important to understand when it 
comes to water security. Both Homeland Security and the 
Government Affairs Committee and the EPW have heard again and 
again from multiple security and chemical experts that IST 
should not be federally mandated. And I encourage my colleagues 
to revisit these hearings, including the one that was on June 
21, 2006, that was focused entirely on the effectiveness of 
IST.
    I was pleased to see the Homeland Security Committee 
approve the reauthorization of the current CFATS Program 
without mandatory IST. Their willingness to find compromise and 
a bipartisan path for it is something I hope we can emulate in 
this Committee, such as we did with Senator Cardin's bill just 
last week.
    The current security bill before this Committee, S. 3598, 
takes a vastly different, more controversial approach. I hope 
that we will take time and work in a bipartisan way to find a 
path forward on water security that would gain support from 
security experts and water utilities, not just environmental 
groups and unions, and have a chance of making a real 
difference in securing water facilities.
    Senator Lautenberg, I know our staffs have been working 
together on other legislation. I hope we can do the same as we 
move down this path. No matter what we do, security for water 
facilities must focus first on ensuring that utilities can 
effectively meet the many requirements of the Safe Drinking 
Water Act and the Clean Water Act and protect the health and 
the environment.
    The individual utilities know their water best, and by 
mandating IST the Federal Government would make it impossible 
for facilities to decide for themselves what the best course of 
action is to meet the health and environmental mandates of the 
Safe Drinking Water Act and the Clean Water Act. Nobody cares 
more about the security of their communities than the people 
who live there. We need to empower them to make the best 
decisions, not assume--as we often do around here--that 
Washington knows best.
    Finally, I know, Mr. Chairman, that you share my desire to 
get S. 1005, the Water Infrastructure Financing Act, to the 
floor. I still believe that the most effective way to improve 
our Nation's water facilities is by reauthorizing the State 
Revolving Loan Fund Programs, both drinking water and 
wastewater. We cannot expect our communities to continue to 
provide safe and clean water if they do not have the resources 
to meet those needs.
    I have three documents I want to enter as a part of the 
record. They would be a letter from the Association of 
Metropolitan Water Agencies, a second letter from the American 
Water Works Association, then a letter from 25 different 
organizations expressing opposition to federally mandated IST. 
I ask unanimous consent these be made a part of the record.
    Senator Lautenberg. Without objection. Certainly.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    Senator Inhofe. Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Mr. Chairman, for holding this oversight hearing 
on water security. I look forward to hearing from our witnesses 
about the steps that EPA and the States have taken since we 
passed the 2002 Bioterrorism Act. I know that many of our 
facilities are much safer as a result of our actions here, but 
there is still more that can be done. As I noted in our 
December drinking water oversight hearing, there is one thing 
that everyone in this room can agree on--that having clean, 
safe, affordable water is a national priority.
    My message has always been that chemical security and water 
security are issues of security, not environmental protection. 
Yet whenever we discuss these issues in this Committee we focus 
on ``inherently safer technology,'' or IST. IST is an 
environmental and engineering concept, not a security concept. 
Environmental activists have been promoting the concept of IST 
for years because it would allow them to eliminate the use of 
chemicals they don't like. IST dates back more than a decade to 
when Greenpeace and other groups were seeking bans on 
chlorine--the chemical used to purify water that has been 
hailed by the CDC as one of the greatest public health 
achievements of the 20th century. Only after 9/11 did 
environmental groups decide to play upon the fears of the 
Nation and repackage IST as a panacea to all of our security 
problems.
    I would like to share with you this excellent clarification 
of IST from Stephen Poorman at the Homeland Security hearing on 
chemical security in March. ``[IST] is premised on the belief 
that, if a particular chemical process hazard can be reduced, 
the overall risk associated with that process will also be 
reduced . . . it is an elegant concept, but the reality is 
almost never that simple. A reduction in hazard will reduce 
overall risk if, and only if, that hazard is not displaced to 
another time or location, or result in the creation of some new 
hazard.'' I think this is especially important to understand 
when it comes to water security.
    Both the Homeland Security and Government Affairs Committee 
and EPW have heard again and again from multiple security and 
chemical experts that IST should not be federally mandated, and 
I encourage my colleagues to revisit these hearings including 
the June 21, 2006, hearing that was focused entirely on the 
effectiveness of IST.
    I was pleased to see the Homeland Security Committee this 
morning unanimously approve a reauthorization of the current 
CFATS program without mandatory IST. Their willingness to find 
compromise and a bipartisan path forward is something I hope we 
can emulate in this Committee. The current security bill before 
this Committee, S. 3598, takes a vastly different, more 
controversial approach. I hope that we will take time and work 
in a bipartisan way to find a path forward on water security 
that would gain support from security experts and water 
utilities, not just environmental groups and unions, and have a 
chance of making a real difference in securing water 
facilities. Senator Lautenberg, I know our staffs have worked 
together on other legislation, and I hope that we can work 
together to find a path forward here.
    No matter what we do, security for water facilities must 
focus first on ensuring that utilities can effectively meet the 
many requirements of the Safe Drinking Water Act (SDWA) and the 
Clean Water Act (CWA) and protect the health and the 
environment. Individual utilities know their water best, and by 
mandating IST the Federal Government would make it impossible 
for facilities to decide for themselves what the best course of 
action is to meet the health and environmental mandates of the 
SDWA and CWA.
    Nobody cares more about the security of their communities 
than the people who live there. We need to empower them to make 
the best decisions, not assume Washington knows best.
    Finally, I know Chairman Boxer shares my desire to get S. 
1005, the ``Water Infrastructure Financing Act,'' on the floor. 
I still believe the most effective way to improve our Nation's 
water facilities is by reauthorizing the State Revolving Loan 
Fund programs, both for drinking and waste water. We cannot 
expect our communities to continue to provide safe and clean 
water if they do not have the resources to meet their 
infrastructure needs.

    Senator Lautenberg. Thanks very much.
    We are joined by Senator Cardin and Senator Udall.
    Senator Cardin, take 5 minutes to make your statement.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you very much for 
holding this hearing. I think this is an extremely important 
hearing.
    I want to underscore the point that Senator Inhofe made, 
and that is that we depend upon clean and safe water for our 
way of life. And we have not paid sufficient attention to the 
water infrastructure in this Nation.
    Now this Committee, on a very bipartisan basis, early this 
session passed legislation to reauthorize the State Revolving 
Fund. And I agree with Senator Inhofe that it is critically 
important that we get the reauthorization done. Many 
jurisdictions are depending upon the predictability of Federal 
funding in order to upgrade their water system.
    The American Society of Civil Engineers has given America's 
water infrastructure a D^. So, we start off with an 
infrastructure that is badly out of date. In my own State of 
Maryland, I refer to, frequently, the water main breaks that we 
have had where River Road, not very far from here, turned into 
a river. And thank goodness no one was killed due to the fast 
response of the first responders. We have had major water main 
breaks in Baltimore where we flooded out communities. Dundalk, 
Maryland, not far from downtown Baltimore, was totally flooded 
by a water main break.
    The point is that our aging infrastructure is beyond its 
useful life, and we need to give our local governments the 
tools they need by permanently reauthorizing these Revolving 
Funds to do that.
    Today's hearing is dealing with another very important part 
of safe water. The House has passed the Chemical and Water 
Security Act which closed loopholes and provided additional 
funding to change to safer technologies. I applaud Senator 
Lautenberg's leadership in this area. He has introduced 
legislation that would close the loopholes and provide for the 
ability to change to safer technologies in our water treatment 
facility plants. And I think that it is extremely important 
that we consider such legislation.
    Let me just point out that in Baltimore the Back River 
Wastewater Treatment Facility Plant has switched from the 
chlorine gas, the very dangerous technology, to liquid bleach, 
relieving nearly 1.5 million people in danger of chlorine gas 
exposure. The city would like to convert another facility to 
liquid bleach but does not have the resources to do it.
    So, I think we need to work with our local governments, 
with our water managers, water treatment managers, to come up 
with a strategy that not only uses safer technologies, that we 
in Congress close the loopholes but that we work to 
dramatically improve the water infrastructure so that the 
reliability of clean and safe water that our constituents 
depend upon is a reality in this Nation.
    Mr. Chairman, with your consent, I will put my entire 
statement in the record, and I will apologize early to the 
witnesses. I have a conflict, but I am very much interested in 
their testimony.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Mr. Chairman, thank you for holding this hearing.
    We rely on clean and safe water every day for our most 
basic household needs; so do our manufacturers and our farmers, 
our hospitals and our schools. The water infrastructure that 
treats and delivers clean drinking water, the infrastructure 
that carries away and treats our wastewater is critical to our 
health and to our security. That infrastructure is at a tipping 
point.
    In many places--if not most places--it has long outlived 
its 50-year life span. The American Society of Civil Engineers 
has given America's water infrastructure a ``D^'' in its most 
recent report.
    We have been made painfully aware of this failure in my 
home State of Maryland. There have been hundreds of water main 
breaks, large and small, across Maryland over the last year 
alone.
    We've seen River Road in Bethesda turned into a literal 
river. In October 2009 a thousand basements in Dundalk, 
Maryland, were under water. On March 6, 2010, thousands more 
homes and businesses along a major thoroughfare in Baltimore 
County were left without water.
    But the physical condition of the infrastructure is not its 
only challenge. Both because of the chemicals used to treat our 
water and because of the importance of this infrastructure to 
our health, water infrastructure and treatment facilities make 
inviting targets for terrorists.
    There are steps we can take to address this vulnerability. 
For instance, many treatment works do not need to use such 
dangerous disinfectant processes and chemicals like chlorine 
gas. And in fact, since the terrorist attacks in 2001 many 
treatment plants have switched to safer disinfection 
alternatives like liquid bleach or ultraviolet light.
    In my own State of Maryland dozens of treatment facilities 
have already converted from chlorine gas to safer alternatives. 
The Back River Wastewater Treatment Facility in Baltimore, for 
example, switched to liquid bleach, relieving nearly 1.5 
million people from danger of chlorine gas exposure.
    The city would like to convert another facility to liquid 
bleach but is struggling to find the resources to make those 
changes. That struggle is magnified by the demands of a 
decaying infrastructure system that requires significant 
investment to ensure the continued delivery of clean water.
    Last year, as Chairman of the Water and Wildlife 
Subcommittee, I worked with Chairman Boxer and Ranking Members 
Inhofe and Crapo to introduce the Water Infrastructure 
Financing Act. That bill would help address the overwhelming 
needs of our Nation's drinking water and wastewater 
infrastructure. It significantly increases the authorizations 
for clean water and drinking water. It would also broaden the 
types of projects that are eligible for funding to include 
projects that increase water treatment facility security.
    While funding eligibility is important, it is not enough to 
address the security concerns posed by water treatment 
facilities. We need better ground rules for when and where such 
changes are necessary.
    When Congress passed the Chemical Security Act in 2006 
several classes of facilities--including drinking water and 
wastewater facilities--were exempted from a chemical facility 
security program rules and requirements. That exemption is a 
serious gap in our security and must be fixed.
    The Chemical and Water Security Act passed by the House of 
Representatives last November closed this loophole and provides 
additional funding to change to safer technologies. The Senate 
must act to do the same. Senator Lautenberg introduced 
legislation that would build on the House passed bill. I 
commend him for his efforts.
    We know that an increased investment in infrastructure has 
benefits beyond the quality of our water and the safety of our 
communities, additional benefits that are particularly 
important in these economic times. With investment in water 
infrastructure we can create thousands of new, desperately 
needed jobs.
    I look forward to hearing from our witnesses today on the 
scope of the security risks and gaps left by current laws and 
their ideas on current legislative proposals.
    We have a lot of work ahead of us to address this serious 
issue. I look forward to a healthy and open minded debate and 
working together to making our water systems and Nation safer.

    Senator Lautenberg. Thank you very much, Senator Cardin.
    Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman, and I want to echo 
what Senator Cardin said. This is a very important hearing. I 
will try to keep my opening statement short and put most of it 
in the record.
    But I do want to comment on the look for safer 
alternatives. I think that that is very important, and 
especially when it comes to chlorine gas. It is a very toxic 
and dangerous chemical. We need to find better ways. And we 
have; this hearing will raise awareness that safer alternatives 
to chlorine gas exist, and they may be as effective as treating 
water and at a reasonable cost.
    We have today a witness with us from Albuquerque, New 
Mexico, Mr. Carlos Perea of MIOX, a fast growing company in 
Albuquerque. MIOX uses a technology originally developed at Los 
Alamos National Laboratory to purify water using salt, water, 
and electric power. Utilities across the country have adopted 
this technology with great success.
    However, many water utilities and their workers and 
communities are still vulnerable. When we consider legislation 
to improve security at these facilities, we must ensure that we 
focus on the root of the problem, the toxic chemicals 
themselves.
    Any legislation should provide a mechanism for utilities to 
get informed about and consider the adoption of safer 
alternatives when feasible and affordable. We should not pick 
winners and losers, but instead create a technology-neutral 
process that will lead to reduced risk and more security.
    I also may not be able to hear all of the witnesses, but I 
know that Mr. Perea will fully inform the panel. I would ask 
the Chairman's permission to put my full statement in the 
record and look forward to hearing from some of the witnesses.
    Thank you, Mr. Chairman. Thank you for your leadership and 
dedication in this area, too, and I know the legislation that 
you have sponsored in many of these areas.
    Thank you very much.
    [The prepared statement of Senator Udall was not received 
at time of print.]
    Senator Lautenberg. Thank you for being with us, even for 
this short time.
    The record will be kept open so that any questions that you 
want to submit will be accepted, and we will look for a fast 
turnaround from those from whom we make an inquiry.
    I want to say to Senator Inhofe that we--this oversight 
hearing is being done to get a better understanding of what the 
problems are.
    Senator Inhofe. And I appreciate that, Mr. Chairman. I only 
wanted to say that when the notice came out we always predicate 
the witnesses we have on what we think the subject is going to 
be. That is why I wanted the clarification that it is not one 
on your particular legislation. That is good.
    Senator Lautenberg. All right.
    And now we would like to hear from Ms. Cynthia Dougherty, 
the Director of the Office of Ground Water and Drinking Water 
at EPA. In that role she is in charge of EPA's program for 
securing the Nation's water facilities.
    Ms. Dougherty, we welcome you and ask you to begin your 
testimony. We ask you to try to keep it to 5 minutes so we will 
have some time for questions.
    Thank you.

 STATEMENT OF CYNTHIA C. DOUGHERTY, DIRECTOR, OFFICE OF GROUND 
 WATER AND DRINKING WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Dougherty. Thank you.
    Good afternoon, Chairman Lautenberg, Ranking Member Inhofe, 
and Senator Udall. I am Cynthia Dougherty, the Director of the 
Office of Ground Water and Drinking Water at the U.S. 
Environmental Protection Agency. I welcome this opportunity to 
discuss EPA's efforts to promote security and resiliency in the 
water sector with an emphasis on our role in addressing 
chemical security.
    I understand that this Committee and others in Congress are 
in the process of considering chemical security legislation. To 
inform these deliberations the Administration has developed a 
set of guiding principles.
    First, the Administration supports permanent chemical 
facility authorities. Second, covered facilities that use 
substances of concern above threshold release levels should be 
required to assess inherently safer technology. Further, the 
appropriate regulatory agency should be authorized to require 
the highest risk facilities to implement IST under certain 
conditions and circumstances.
    Third, the existing security gap for wastewater and 
drinking water facilities should be closed with EPA having the 
authority to regulate chemical security at such water 
facilities while recognizing their essential public health and 
environmental missions.
    The water sector infrastructure is vulnerable to a wide 
range of threats and hazards. Serious health impacts could 
result from the introduction of contaminants into a drinking 
water system. And any denial of drinking water or wastewater 
services could have a major adverse effect on public health.
    The economic impacts of a terrorist attack or natural 
disaster on drinking water or wastewater utilities could be 
significant for businesses and infrastructure in a community. 
Simply put, the loss of water services could undermine the 
viability of just about any community.
    EPA has worked over the last several years to support the 
water sector in improving security and resiliency, and I am 
pleased to report that the sector has taken its charge 
seriously. EPA has been entrusted with important 
responsibilities for coordinating the protection of the water 
sector through congressional authorization under the 
Bioterrorism Act of 2002 and through Homeland Security 
Presidential Directives.
    Promoting the security and preparedness of the Nation's 
water infrastructure remains a priority for the agency in a 
post-9/11 and post-Hurricane Katrina world. In working with the 
water sector we have emphasized a multi-layered approach to 
security consisting of prevention, detection, response, and 
recovery so that we can assist water facilities in avoiding 
incidents, and should an incident occur, in quickly identifying 
and recovering from such events.
    We have worked closely with the water sector to assess and 
reduce the risks associated with hazardous chemicals. To this 
end, EPA and industry associations--often in partnership--have 
developed tools, training, and technical assistance to help 
water utilities identify and mitigate those risks. For example, 
EPA has developed software tools that assist water systems with 
assessing vulnerabilities, including chemical storage and 
handling.
    In conclusion, over the past several years we have made 
progress in ensuring the security of our Nation's drinking 
water and wastewater systems. We have produced a broad array of 
tools, training, and other assistance that the water sector 
uses to assess its vulnerabilities, reduce risk, and prepare 
for emergencies including chemical theft and release.
    In developing these tools we have worked effectively with 
our partners within the sector and reached out to build new 
relationships beyond the sector to ensure that water utilities 
can be prepared to prevent, detect, respond to, and recover 
from intentional incidents and natural disasters.
    We look forward to continuing to work with members of the 
Committee on legislation that ensures the security of drinking 
water and wastewater facilities while supporting their critical 
mission for public health and environmental protection.
    Thank you again for the opportunity to testify about our 
role in water security. I would be happy to answer any 
questions you have.
    [The prepared statement of Ms. Dougherty follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Lautenberg. Thank you, Ms. Dougherty.
    I want to just review a couple of things. In your 
testimony, you said that current chemical security laws do not 
adequately address the risk of attack on water facilities. I do 
not know whether you have had a chance to look at the Secure 
Water Facilities Act, which we think is much more effective in 
closing the gap and addressing these risks.
    Are these areas of coverage taking care of the problems 
that seem to be--that have remained open over a period of time? 
Can we address these risks in the form that we are proposing 
here?
    Ms. Dougherty. Yes. I think your legislation would close 
that gap, which is a priority for this Administration.
    Senator Lautenberg. Some have argued that companies--and 
not regulatory agencies--should decide whether a facility 
should use safer technology. Which might be a better approach, 
a voluntary or regulatory approach to protect the public from 
the consequences of an attack?
    Ms. Dougherty. The Administration supports the approach in 
your bill which would provide the Government the authority to 
require safer alternatives for the highest risk facilities, 
balancing security, public health, and their environmental 
mission. And for the drinking water and wastewater facilities, 
that would be done really at the State level.
    Senator Lautenberg. As I noted, over 500 water facilities 
in 47 States have already replaced extremely hazardous 
substances with safer and more secure chemicals in their 
processes. We have heard from the opponents that moving to a 
safer technology does not necessarily make sense for all 
facilities, and we are not proposing a one size fits all. The 
standards that we proposed, we believe can provide the latitude 
as well as the coverage that we need.
    Do you think that the approach that we have taken is one 
that can take care of our needs without imposing heavier 
burdens on those who do not have this kind of a responsibility 
but have other ways of dealing with it?
    Ms. Dougherty. I think the approach in your bill provides 
factors for water systems and if necessary the State to assess 
that allows for an understanding of the uniqueness of each 
system and would allow for them to look at safer alternatives 
while still making sure that they meet that public health or 
environmental protection requirement.
    Senator Lautenberg. Yes, we have tried to make certain that 
we work to cure the problem that we know is rampant in terms of 
a lack of the security for these facilities and how important 
it is that we try to cover these bases. And we know that there 
are lots of enemies out there that see the targets, water 
supply systems, as the kind of target that brings enormous 
damage.
    Now, if the facility is required to switch to a safer 
alternative we want to make sure that there is no risk shifting 
where a plant simply moves the risk to another facility. Could 
EPA work with the Department of Homeland Security to reduce 
overall risk and prevent the risk from being shifted offsite?
    Ms. Dougherty. Yes, EPA could, in consultation with the 
Department of Homeland Security, look to make sure that there 
is no offsite risk shifting in a decision that is made.
    Senator Lautenberg. Thank you, Ms. Dougherty.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Dougherty, let me start off with the vulnerability 
assessments. Do you see a benefit in routinely updating these 
assessments?
    Ms. Dougherty. One of the things that we have done over the 
past several years with the water sector is look at what the 
future should be for an active and effective security program 
at a water--a wastewater system. And one of the things that we 
together identified in doing that was that vulnerability 
assessments need to be updated over time so that the system 
understands what they need to be protecting against.
    Senator Inhofe. And how often do you think they should be 
updated?
    Ms. Dougherty. Three to 5 years, probably.
    Senator Inhofe. OK.
    Ms. Dougherty. Or if something major changes in terms of 
the system, in terms of how, what treatment they are using or 
what else might be happening around that system.
    Senator Inhofe. OK. Does the EPA keep a record as to the 
cost of these assessments?
    Ms. Dougherty. We have not done that. No.
    Senator Inhofe. Do current vulnerability assessments 
require systems to examine how they handle chemicals onsite and 
look at how systems can handle their chemicals more safely?
    Ms. Dougherty. Yes. When the original Bioterrorism Bill was 
passed in 2002 there was a requirement for systems to do one-
time vulnerability assessments, and those assessments included 
chemical safety and handling.
    Senator Inhofe. And do you believe that if the inherently 
safer technology were to be mandated, do you have--does EPA and 
the agencies have the resources to carry out that mandate?
    Ms. Dougherty. I would say that when you look at the bills 
that are under consideration there are authorizations for EPA 
and the States to carry out the requirements, and those 
authorizations would be sufficient for us to do it. But we do 
not have the resources today.
    Senator Inhofe. Just to help me out a little bit and for 
the record, define inherently safer technology.
    Ms. Dougherty. Well, I think in--we have not defined 
inherently safer technology specifically, but it is defined in 
both the House Bill that has been passed as well as Senator 
Lautenberg's bill, and we think that definition is fine, and it 
is not so prescriptive and provides the ability of systems to 
look at a number of different factors.
    Senator Inhofe. Well, I do want to look at that because I 
see, well, first of all, Senator Lautenberg and I both want to 
accomplish the same thing. I said that in my opening statement, 
and I mean it. But there are some problems here. One, that term 
has been so vague. In the past we have looked at that, and the 
fear the people have is that it is not well enough defined so 
that people have a concern that they would be, they put their 
own worst case definition on it, which is just human nature.
    And the other problem is just a basic difference is, and I 
think that certainly Senator Lautenberg mentioned it in his 
question to you or reaffirm his position and that is, in asking 
the question is the bureaucracy in better shape than the 
companies themselves to do this. And I think that this is 
another reason why there is often disagreement on IST.
    I can remember, gosh, it was about 3 or 4 years ago, we 
went through this for a long period of time trying to do this, 
and those are the two problems that I had at that time. I was 
really watching this closely as the time goes by.
    Ms. Dougherty. Yes, I would just add that the way that the 
bills are set up and the way that we would envision this 
happening is that the systems would do the assessment of the 
methods to reduce a release of a chemical of concern and that I 
would expect, given the experience that we have had with the 
water sector over time, that the systems would do a fine job of 
doing that and most likely reach the conclusions that they need 
to reach of themselves.
    But it is important to have a Government layer in terms of 
oversight and consistency related to national security 
decisions. And these are national security decisions when you 
are looking at what to do about the chemicals of concern here.
    So, it would be important to make sure that there is still 
a Government check and a Government review and approval or 
decision to require IST for those highest risk contaminants.
    Senator Inhofe. But when you say the systems would be 
responsible for making this assessment and determining what 
needs to be done about it, and you do not see that this could 
be, you think that--you already said that resources would be 
adequate in the event that this system----
    Ms. Dougherty. If it was appropriated, yes.
    Senator Inhofe. If appropriated, yes. Because what I do not 
want to do is be looking at another unfunded mandate.
    Ms. Dougherty. Yes, I agree.
    Senator Inhofe. You know, those of us who served some time 
at the local government level, I used to say when I was Mayor 
of Tulsa that our problems were not prostitution and crime in 
the street and all that; the problems were unfunded mandates. 
And that is what we are going to try to avoid.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thank you very much.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Ms. Dougherty, your testimony discussed how EPA has been 
working with water utilities since 2002 and before on security. 
But most of the discussion relates to physical security. What 
efforts has EPA taken to educate both large and small drinking 
water utilities about the options for safer alternatives to 
chlorine gas water treatment, and what has been the impact of 
those efforts?
    Ms. Dougherty. We have done some work over the last several 
years with the water sector to develop schools and training 
that help them assess and mitigate the risk from hazardous 
chemicals. So, the risk assessment tools that we have developed 
to address vulnerabilities include chemical storage and 
handling, and we have developed a software tool which models 
the dispersion and health effects of hazardous substances which 
DHS actually uses in its CFATS Program.
    We also have partnered with the National Association of 
Clean Water Agencies and DHS to create a chlorine gas decision 
tool to help utilities evaluate their disinfection methods in 
light of security and public health concerns. And we have 
worked with the Water Sector Coordinating Council over time 
with DHS to talk about emerging threats related to hazardous 
chemicals and make sure that information is available to 
people.
    Senator Udall. Now, on the second panel, Mr. Carlos Perea 
is testifying about a technology developed in New Mexico that 
is an alternative to chlorine gas and concentrated liquid 
chlorine. Their process generates a diluted chlorine solution 
onsite for water purification, and it is my understanding that 
several other businesses offer competing technologies as well.
    Does the EPA consider this a viable alternative that 
eliminates the security risks caused by chlorine gas stored 
under high pressure?
    Ms. Dougherty. It can be if the circumstances are right for 
the system to use it. And the particular approach that you are 
talking about has been approved for providing disinfection 
under our rules in terms of disinfection.
    Senator Udall. Great.
    Yesterday, our Committee received a letter from the 
American Metropolitan Water Association which raised some 
concerns for legislation that pushes utilities to adopt safer 
alternatives. Have you had an opportunity to see that letter, 
and if so do you have any response to the concerns they raised?
    Ms. Dougherty. I just know that it got waved at me.
    Senator Udall. OK.
    Ms. Dougherty. I would have to look at it.
    Senator Udall. OK. Well, we will give you an opportunity in 
the subsequent questions that are submitted to respond to them.
    Then your testimony notes that EPA supports the general 
structure and approach of Senator Lautenberg's legislation and 
the Secure Water Facilities Act which would require water 
utilities to consider the viability of safer alternatives at 
their facilities. Could you provide some more detail into how 
EPA would participate in that process, especially in terms of 
educating and informing utilities about the alternatives 
available to them?
    Ms. Dougherty. I think we would work with the sector in 
terms of making sure that we have identified the different 
alternatives that exist and provide information in terms of 
approaches that they could take in terms of looking at those 
different alternatives.
    Senator Udall. Great. And thank you. We look forward to 
your answer on the letter.
    Thank you.
    Ms. Dougherty. Thank you.
    Senator Udall. Thank you, Mr. Chairman.
    Senator Lautenberg. Thank you very much, Ms. Dougherty. We 
will keep the record open for approximately 10 days and ask 
that if any inquiries come in that your response is prompt.
    Ms. Dougherty. Certainly.
    Senator Lautenberg. Thank you very much.
    Ms. Dougherty. Thank you so much.
    Senator Lautenberg. And now I would like to call Mr. Ben 
Grumbles, who is the Director of the Arizona Department of 
Environmental Quality, Mr. Paul Orum of the Blue Green Chemical 
Security Coalition and an independent consultant to the Center 
for American Progress, Mr. Carlos Perea, President and Chief 
Executive Officer of the MIOX Corporation, and Mr. Darius 
Sivin, International Representative of the United Automobile, 
Aerospace and Agricultural Implement Workers of America.
    We thank each one of your for being here, and Mr. Grumbles, 
if you would please start your testimony.

STATEMENT OF BENJAMIN H. GRUMBLES, DIRECTOR, ARIZONA DEPARTMENT 
                    OF ENVIRONMENTAL QUALITY

    Mr. Grumbles. Thank you very much, Mr. Chairman.
    Senator Lautenberg, Senator Inhofe, Senator Udall, it is a 
real honor to be before the Committee, to be back before the 
Committee. I was a former Assistant Administrator for Water at 
EPA and now am delighted to be the Director of Arizona's 
Department of Environmental Quality.
    And on behalf of Governor Brewer, I want to thank you for 
giving us and the citizens of Arizona a chance to provide some 
practical insights and thoughts about the goal we all share of 
ensuring water is cleaner, safer, and more secure.
    I want to highlight some of our experiences over the years, 
particularly at the national level but at the State level as 
well, in the post-9/11 era I had the opportunity to see a lot 
of great work being done, funding through Congress, support 
through Congress and EPA, vulnerability assessments, increased 
tools, and technical assistance and training. And I think the 
Nation--as I am sure you would agree--has made significant 
progress. We are safer but not safe enough.
    I want to thank you for having this hearing that brings 
together water and wastewater interests together in the same 
room to talk about a common goal and to raise real issues, 
practical considerations, and how to get to that goal together 
and as quickly as possible.
    I wanted to share with you that one of the key messages I 
think from an Arizona perspective, and water and wastewater 
utilities, and also I know other utilities across the country, 
is that bipartisan, bicameral efforts to strengthen our 
Nation's water security should not get wrapped around the axle 
of inherently safer technology.
    Now, Mr. Chairman, I laud your efforts to force the 
discussion on considering safer technologies. I think it is 
very important, however, to keep in mind that how we get there 
is the key question. We all support the concept, but asking how 
it is going to be implemented and by whom is the key one.
    I think it is important to recognize that inherently safer 
is not always inherently smarter, particularly coming from the 
West now, an arid area. The heat, the climatic considerations, 
the realization that in every watershed the chemistry of the 
water is a little bit different, means that it is at the local 
level that the best decisionmaking is made.
    So, one of the key points I wanted to emphasize is that the 
city of Phoenix did a study in 2003 asking this key question 
about what disinfectant to use. I know the American Water Works 
Association has done some good work looking at different cities 
across the country, weighing the costs and the benefits to 
ensure that the Safe Drinking Water Act requirements are being 
met, that public health is being protected, and that it is 
being done safely.
    The city of Phoenix determined that it made sense to change 
some of its practices on the use of gaseous chlorine including 
to embrace double containment--having a can within a can--and 
to reconsider railcar delivery and storage in a move toward 
smaller, manageable quantities.
    There were significant considerations against moving away 
from gaseous chlorine, including considerations about the cost, 
but not just the cost, because that is not the driver when you 
are talking about environmental and public health statutes. The 
drivers include looking at the life cycle analysis, the ability 
for chlorine residuals to remain in the system, looking at the 
potential, that if you moved to hypochlorite there might be in 
certain environments the production of a dangerous by-product 
such as perchlorate or bromate formed that must now be managed. 
These are all worth reviewing and all worth keeping in mind as 
you continue to consider legislation.
    Mr. Chairman, I would like to just emphasize three things. 
One is please keep in mind that inherently safer technology--
that the choice of what disinfectant methodology to use--should 
be primarily a local decision.
    The second one is that the role of the States is critically 
important. I truly understand the role, the need for a strong 
presence from EPA and DHS when it comes to coordination, 
national standards but neighborhood solutions. States are in a 
better position not to take over the whole issue but to help 
make the right decision, coordinating with local water and 
wastewater utilities.
    The third one, as I know you recognize, this takes money. 
And an excellent role for the Federal Government, Mr. Chairman, 
is to ensure that adequate funding is available to continue to 
advance the technology, the science, the expertise on this 
critically important issue to strengthen the security of our 
water throughout the country.
    Thank you very much, Mr. Chairman. I appreciate the 
opportunity.
    [The prepared statement of Mr. Grumbles follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Lautenberg. Thank you very much.
    Mr. Orum.

STATEMENT OF PAUL ORUM, BLUE GREEN CHEMICAL SECURITY COALITION, 
     INDEPENDENT CONSULTANT TO CENTER FOR AMERICAN PROGRESS

    Mr. Orum. Good afternoon. I am Paul Orum, consultant to 
public interest organizations on chemical safety and security.
    Thank you very much for the opportunity to testify on 
behalf of the Blue Green Chemical Security Coalition and to 
present findings from survey reports that show leading water 
utilities reducing their vulnerability to accidents and 
terrorism.
    I want to stress the following. First, many agencies and 
organizations have warned that an intentional release of 
industrial chemicals could harm thousands of Americans. The 
Homeland Security Council uses 17,000 deaths in a planning 
scenario; an insurance industry estimate points to $7 billion 
in potential damages; EPA figures show some 800 wastewater and 
drinking water facilities each with 10,000 or more people 
living in its vulnerability zone. And more than 20 Federal 
agencies and non-governmental organizations have warned about 
the problem.
    Second, there are solutions. Safer and more secure 
chemicals and processes are widely used and can remove dangers 
to employees and communities. Four surveys that I have 
conducted through the Center for American Progress show more 
than 600 chemical facilities across 20 industries already using 
an option that avoids the possibility of a catastrophic 
chemical release, and the water sector, in particular, has many 
converted facilities.
    At least 554 drinking water and wastewater facilities in 47 
States have replaced extremely hazardous substances with safer 
and more secure chemicals or processes, in the process taking 
more than 40 million Americans out of the danger of a toxic gas 
plume from those facilities.
    Now, two caveats. These conversions took place over 10 
years. At this rate, without legislation to push the process it 
would take a half-century to convert the approximately 2,500 
remaining water and wastewater plants that still report large 
amounts of chlorine gas. Also, legislation is needed to 
encourage converting the highest hazard facilities to set 
priorities. Otherwise, these highest hazards could remain 
around for half a century.
    The drinking water facilities typically went from chlorine 
gas to chlorine bleach, from chlorine to chlorine, whether 
generated onsite or brought in in bulk. Some wastewater plants 
also went to liquid bleach. Others converted to ultraviolet 
light.
    The third general area is the facilities that use safer and 
more secure chemicals and processes avoid certain costs and 
dangers and requirements. Survey respondents reported avoided 
costs including regulatory compliance, personal protective 
equipment they did not have to buy, chemical security they did 
not have to install, emergency planning and potential 
liability, among more than 20 types of avoided costs.
    One-third of converted facilities anticipated saving money 
as a result. And this is because gates and guards always cost 
money while upgrading technology sometimes saves money by 
modernizing facilities. And the avoided security costs for 
those converted facilities will be roughly $3.1 billion over 10 
years.
    Now, it only makes sense for facilities to consider safer 
options before assuming security costs that can be avoided and 
before imposing costs and dangers on Government agencies and 
the public. In many cases, even where facilities do not save 
money alternatives to remove extremely hazardous substances are 
also cost effective.
    Finally, this is a mature issue. There have been bills for 
10 years since your original bill in 1999. The current bills 
before the Committee are the result of significant compromise 
and include certain principles that we support. They build on 
current laws, they protect drinking water and wastewater 
standards, and they preserve State programs in collaboration 
with local utilities.
    Importantly, they provide each facility the flexibility to 
conduct its own assessment suitable to its own circumstances. 
Knowledge of solutions is dispersed, Government policy should 
cultivate those solutions, and we see this proposed legislation 
as a process to generate those solutions.
    More than 100 labor and public interest organizations urge 
the Senate and the Committee to act before the current program 
expires on October 4th.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Orum follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Lautenberg. Thank you very much.
    Mr. Perea.

   STATEMENT OF CARLOS PEREA, CHIEF EXECUTIVE OFFICER, MIOX 
                          CORPORATION

    Mr. Perea. Senator Lautenberg, good afternoon.
    My name is Carlos Perea. I am the CEO of MIOX Corporation. 
We are a company that has been solving water quality issues for 
approximately 20 years. Our products are used in U.S. Naval 
ships as well as some of the top resorts and hotels around the 
world.
    But the majority of our experience has been in serving the 
needs of the municipal drinking water facilities around the 
country, and our systems are used by hundreds of facilities in 
45 States. I actually brought a small example of the technology 
and the small purifier pen which is standard issue for U.S. 
Marines for drinking water.
    It is an honor to be a part of this discussion regarding 
the safety and security of our Nation's water treatment 
facilities. I have three simple messages for this Committee and 
welcome any questions.
    The first is, please know there are well-tested solutions 
that can virtually eliminate the safety and security issues of 
concern. Second, these solutions do not have to cost more money 
and do not have to add burden to the treatment facilities and 
the communities. And third, without responsible legislation the 
rate of change will continue to be slow, and the majority of 
our communities will be vulnerable to accidents, or worse, to 
deliberate acts of terrorism for years to come.
    We have all read about and heard about the risks to large 
urban facilities and communities, that as many as 6 times the 
number of people who died in the horrific acts of 9/11 could be 
affected in the event of a gaseous chlorine spill in an urban 
area.
    However, I want to talk more about the dangers to our small 
rural communities. I believe these are the ones that we should 
be concerned about, both given their numbers and the likelihood 
they may not be as well resourced with the same safety and 
security precautions as larger cities.
    I believe the best way to deal with these risks are to 
eliminate the need to store and transport these chemicals 
altogether, and this is entirely possible with a well-proven 
approach. As was mentioned earlier, MIOX is part of a larger 
industry segment called onsite generation of disinfection 
chemicals.
    MIOX, along with others, has the ability to take ordinary 
salt, power, and water and to convert it into a chlorine base 
that is very powerful and effective but yet very dilute and 
safe and can be used as a complete alternative to gas and 
chlorine systems, including commercial strength bleach. The 
process uses electrolysis, and the only by-product is hydrogen 
gas that is easily vented.
    This approach has several benefits. First, it is completely 
compliant with EPA drinking water standards. Second, it 
eliminates the need to store and transport chemicals 
altogether. Third--and importantly--it saves money and can 
often achieve 50 percent cost savings or more over the life of 
the equipment. It is more environmentally responsible. It 
reduces the number of truckloads of chemicals that must be 
delivered. And it eliminates the need to decontaminate used 
containers.
    But most importantly it is very simple for the users to 
adopt, and existing systems can be retrofitted with no downtime 
and minimal training. This approach is used in over 5,000 
installations, many of which have been in service for 10 years 
or more, some of which are very small communities of 2,000 or 
less.
    To give you three brief examples. The city of Santa Fe has 
been using MIOX systems since 1998 and has published reports of 
better overall water quality and lower operational costs. In 
the last several months Lakehaven Utility in Washington decided 
to switch from both gas and liquid chlorine for safety 
benefits. They also found they were able to save over $850,000 
over the projected life of the project.
    But the most compelling example that I would like to share 
with you is from Apple Valley, California, that switched over 
10 years ago due to safety concerns from caustic liquid bleach.
    To quote one of their operators, these are the folks who 
are actually working with the chemicals day in and day out; 
before switching to onsite generation in Apple Valley we 
literally had to employ a shower at every site. Transferring 
the liquid bleach was a slippery mess--we had to get geared up 
in full facials, goggles, aprons, the works every time. When we 
switched to onsite and were given the proper training, the 
installation was problem free, we didn't need any special 
protective equipment or gear, it was easy to get the salt, it 
was totally safe, and we saw huge cost savings.
    So, if these systems are safer and they can save money, why 
would all communities not follow these examples? And why should 
we consider additional regulations? I believe there are many 
reasons. Many of these communities are working hard to meet EPA 
drinking water standards. However, they have no clear signal on 
how much they need to focus on overall safety and risk.
    Some communities have tried new approaches only after an 
accident or a near miss with hazardous chemicals. Others have 
adopted because they are proactive and want to save money or 
want to be more environmentally responsible. But the majority 
are not likely to change, at least not very quickly, unless 
they are prompted. They may just be too busy with day to day 
operations or other priorities.
    Whatever the reasons, I believe it is time to take steps to 
make our communities safe from these toxic chemicals. If we can 
make them safer and reduce operational costs, why wouldn't we? 
I hope it does not take a tragic accident or deliberate act of 
terrorism for us to help the rest of the Nation's communities 
and drinking water systems take notice.
    [The prepared statement of Mr. Perea follows:]
    
    
    
    
    Senator Lautenberg. Thank you very much.
    Dr. Sivin.

       STATEMENT OF DARIUS D. SIVIN, PH.D., LEGISLATIVE 
    REPRESENTATIVE, INTERNATIONAL UNION, UNITED AUTOMOBILE, 
 AEROSPACE AND AGRICULTURAL IMPLEMENT WORKERS OF AMERICA (UAW)

    Mr. Sivin. Senator Lautenberg, thank you for the 
opportunity to testify today.
    I am Dr. Darius Sivin, Legislative Representative for the 
International Union UAW. We represent over 1 million active and 
retired workers. Before serving as a Legislative Representative 
I worked as an industrial hygienist at the UAW where one of my 
responsibilities was facility visits and worker training 
related to chemical safety.
    Although this is not a legislative hearing I would like to 
begin by urging the Committee to mark up and quickly approve S. 
3598, the Secure Water Facilities Act, and to make the 
improvements identified in this testimony.
    The UAW appreciates the opportunity to testify at this 
hearing on protecting America's water treatment facilities. We 
are greatly concerned about the security of toxic inhalation 
chemicals at these facilities because our members get hurt 
first and worst in any attack.
    We represent workers at the Detroit Wastewater Facility 
which uses railcars of chlorine gas. The fact that Detroit has 
recently been a terrorist target last Christmas increases our 
concern for the more than 2 million people--including many of 
our members--who live and work in the vulnerability zone of the 
Detroit Wastewater Facility.
    We are encouraged that 11 wastewater treatment facilities 
in Michigan have already converted from chlorine gas to 
ultraviolet or liquid chlorine bleach. It is likely that the 
Detroit facility can do the same.
    We believe that water facility chemical security 
legislation will create jobs, and this belief is supported by a 
recent report by Management Information Services. It is hard to 
imagine otherwise given that the legislation requires public 
facilities to invest in security, and this requirement is 
accompanied by funds to help defray the costs. Moreover, water 
facilities cannot be closed or moved far away without being 
replaced locally. Every community needs drinking water and 
wastewater treatment.
    I want to emphasize that assessment and implementation of 
methods to reduce the consequences of attack are important 
security measures. They are security measures. Government 
agencies should be able to require a facility to implement its 
own plans to reduce the potential consequences of an attack. 
The bipartisan Partnership for a Secure America has stated the 
development of inherently safer, economically beneficial, and 
efficient technology should be prioritized.
    In a 2007 piece titled The Next Attack, Dr. Stephen Flynn, 
President of the Center for National Policy and a former Fellow 
of the Senate Foreign Relations, said the following. Public 
water filtration plants use large quantities of chlorine, one 
of the gases used as a weapon during World War I, lethal for 
anyone caught downwind, potentially placing tens of thousands 
of people at risk. This risk could be alleviated by replacing 
chlorine with sodium hypochlorite, the active ingredient in 
household bleach.
    We fully agree with these security experts that methods to 
reduce the consequences of an attack are important security 
measures. We are pleased that your bill, S. 3598, provides for 
assessment and appropriately conditional implementation of 
methods to reduce the consequences of an attack.
    We believe that vulnerability assessments and site security 
plans can benefit from workers' direct and current knowledge 
and experience of facility operations. Moreover, union staff 
that enters multiple facilities in the course of their work can 
bring the best non-proprietary ideas from one facility to 
another. For that reason, we are pleased that S. 3598 provides 
for including workers and their representatives in the 
development of vulnerability assessments and site security 
plans.
    We favor a statutory requirement for facilities to provide 
copies of vulnerability assessments and site security plans 
submitted to Government agencies to the very employees and 
representatives who participated in developing them. Without 
such a requirement the minority of employers who are 
unscrupulous could change the assessment prior to submitting 
it.
    Water facility security legislation must also include 
language requiring employees to be trained in methods to reduce 
the consequences of attack. In my written testimony I have 
identified a number of ways in which we believe that the 
information and accountability in the legislation can be 
expanded. Let me just add that we do not think that there 
should be criminal prosecutions for sharing what may or may not 
be protected information.
    In conclusion, even though this is not a legislative 
hearing we urge the full Committee to mark up and quickly 
approve S. 3598, the Secure Water Facilities Act, and make the 
following improvements: Require employees to be trained in 
methods to reduce the consequences of attack, require employers 
to provide copies of vulnerability assessments and site 
security plans to those who participated in development of 
them, expand public disclosure of information, and eliminate 
criminal penalties for disclosing information about 
vulnerability in the absence of criminal penalties for non-
compliant employers.
    We look forward to working with this Committee to make this 
happen.
    Thank you very much.
    [The prepared statement of Mr. Sivin follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
   
    
    Senator Lautenberg. Thank you to each one of you for your 
testimony.
    We are going to defer for the moment to Senator Udall from 
New Mexico because Mr. Perea is here.
    Please.
    Senator Udall. Thank you, Mr. Chairman, and thank you for 
the courtesy. It is really appreciated.
    Mr. Perea, your testimony notes that your company was 
founded as a spin-off from Los Alamos National Lab, which is a 
great example of the jobs and technological advancements that 
the labs create. I want to applaud you and the labs on that. I 
do not have a question right now, but I may come back to that.
    Your testimony notes that the main obstacle for municipal 
utilities considering onsite disinfectant technologies is the 
lack of information and reason to consider alternatives. Could 
you expand on that and describe how the process in Senator 
Lautenberg's legislation could inform utilities' 
decisionmaking?
    Mr. Perea. Thank you, Senator Udall.
    The question, I believe, is how would this legislation help 
promote adoptive technologies such as MIOX and inherently safer 
technologies? Is that the nature of the question?
    Senator Udall. That is right.
    Mr. Perea. Yes. As you know, utilities are not driven by 
profit motives. It is actually, ironically, much easier for us, 
and as a business we have turned more of our attention to the 
private sector.
    Utilities are constantly dealing with shifting priorities 
and compliance. Our experience--my experience personally--has 
been that some of these utilities have safety of their workers 
and safety of the communities at the forefront of any of their 
decisionmaking, where others, they have not had an accident, 
they have not had an issue, and quite frankly their focus and 
attention is elsewhere in terms of water compliance.
    Senator Udall. One of the objections we hear is that safer 
alternatives may be more expensive. New Mexico has many rural 
areas and towns that do not have a lot of financial resources, 
but several of them have adopted your alternative, including 
Las Vegas, New Mexico, and Bloomfield. How did these 
communities end up deciding to use an onsite purification 
technology, and how do the costs compare to the traditional 
chlorine process?
    Mr. Perea. Yes, Senator. The communities that have adopted 
MIOX systems or competing alternatives typically have a longer 
range horizon in mind when they consider costs. Typically they 
are paying for gas chemical or liquid chemical on a monthly 
basis on some type of contract. To adopt a technology like MIOX 
the user will end up buying a piece of capital equipment, which 
then allows them to have a much lower operational cost on the 
monthly basis.
    The equipment typically pays for itself, versus a liquid 
system, inside of 2 years, and often over a gas system inside 
of several years more than that. So, the Lakehaven example is 
very common. I do not know the exact percentage in that case, 
but I am sure it is 30, 40, or maybe even as much as 50 percent 
cost savings over the life of the equipment.
    Senator Udall. You heard me ask, I think, the EPA about the 
letter received from the American Metropolitan Water 
Association which raised some concerns with the legislation 
that pushes utilities to adopt safer alternatives. Have you had 
an opportunity to see that letter, and if so, what is your 
response to any concerns they raised?
    Mr. Perea. Unfortunately, I also am aware of the letter, 
but have not read it in detail. Nor do I have a specific 
response to it.
    Senator Udall. Could you just tell us briefly about the 
spin-off and how that happened, MIOX from Los Alamos?
    Mr. Perea. Yes, of course. The origins of the technology in 
the company pre-date my involvement, which is approximately 5 
of the 20 years. But my understanding in talking to the 
original founders of the company, the original contract was 
specifically for this same exact issue for the U.S. military 
looking to get rid of gas chlorine in the field. That was the 
origin of the technology and the original SBIR. And it is 
indeed used today for that specific purpose as well.
    Senator Udall. Thank you. Once again, I applaud that spin-
off.
    And Chairman Lautenberg, I want to thank you for your 
courtesies very much, and the Ranking Member, Senator Inhofe, 
for that.
    Senator Lautenberg. We are happy to provide it. You are 
very helpful in all matters, and we were glad to accommodate 
you.
    Senator Inhofe.
    Senator Inhofe. In fact, we were saying, we were talking 
briefly, how much we like New Mexico and the time we have spent 
there.
    [Laughter.]
    Senator Udall. I will stay here for that.
    Senator Lautenberg. I skied in Taos.
    Senator Udall. Come back. Come back.
    [Laughter.]
    Senator Inhofe. Well, I have a very important question--the 
most important question to be asked today--of Ben Grumbles. Do 
you realize how many years you and I have been working 
together?
    Mr. Grumbles. Yes, sir.
    [Laughter.]
    Senator Inhofe. No further questions.
    [Laughter.]
    Mr. Grumbles. And it has been a pleasure, and it dates back 
decades.
    Senator Inhofe. It dates back to 1987, and you were on the 
Committee. You could not have been more than 15 years old then, 
but that was 24 years ago. And I have enjoyed working with you 
all of these years.
    I thank you for coming to share your experiences on both 
the national level and on the State level. And the second 
question I want to ask is which do you like better, Washington, 
DC, or Arizona?
    Mr. Grumbles. Can I submit that for the record?
    [Laughter.]
    Mr. Grumbles. I love Washington, DC. Arizona is a wonderful 
place to live and work and play and visit.
    Senator Inhofe. Sure. It is kind of hot.
    I was intrigued to hear that Arizona has incorporated 
safety information into its sanitary service surveys. Are you 
the only State that is doing that?
    Mr. Grumbles. Absolutely not. And Senator Lautenberg, I 
think it is an excellent point. Everyone should look for ways 
to embed, to institutionalize security into Safe Drinking Water 
Act as well as Clean Water Act practices and procedures.
    The State of Arizona, like many other States, is looking 
for opportunities to embed security considerations so that when 
the State agency is doing its source to tap risk assessments at 
individual water facilities, they look at security-related 
aspects of it. And I think that is something that the Congress 
should continue to encourage and EPA encourage.
    Senator Inhofe. Have you learned some lessons from that 
that you can share with some of the other States?
    Mr. Grumbles. Well, one of the lessons that we learned is 
that it is not just about the treatment methodology at the 
plant. It is also looking at the entire system--the water 
system, the water lines, the sewers, the whole lifeblood, and 
so always one of the greatest risks of some type of act or 
intentional act is not just at the plant itself but also in the 
water lines, the drinking water lines or the sewer lines. And 
that is an important part to keep in mind.
    The other is to look at the specific pros and cons of the 
different types of treatment practices and methodologies. We, 
in Arizona, particularly based on the Phoenix study, really 
want to be asking those questions. How well do substitutes to 
gaseous chlorine work? Do they meet the Safe Drinking Water Act 
or Clean Water Act requirements? Does the heat of certain areas 
of the country change the dynamics? And I think those are 
important that we learn in the sanitary surveys as well.
    Senator Inhofe. And which is one of the arguments you would 
use when doing this on a local level. Now, you are closer to 
the water facilities because you are at that level. Do you 
think that they would make the appropriate security upgrades if 
they had the resources to do it?
    Mr. Grumbles. I think that well-trained local water utility 
officials are in the best positions to make those decisions. 
They should be subject to oversight or regulation, absolutely. 
Some of the utilities, some of the communities in the State of 
Arizona, are moving away from gaseous chlorine. It is what fits 
the local watershed and the local community's needs. And I 
think that is a good way to go I think at the national level 
and at the State level, though there should be oversight and 
support to help those local experts make those decisions with 
the most information available.
    Senator Inhofe. Are there any other barriers other than 
money that would prevent upgrades in security?
    Mr. Grumbles. I think--this does not directly answer the 
question--but I think particularly in the Southwest or in other 
parts of the country that are looking at the water quantity, 
water quality challenge, every decision about what treatment 
methodology to use you should be asking not just what is the 
safest methodology at the local level but also what is going to 
also provide for a product that can be more effectively 
reclaimed and reused.
    So, ensuring that there are not unintended consequences to 
changing your treatment practices, I think, is an important one 
that the water security arena needs to take into account and 
other environmental regulations is a change in practice at a 
utility going to make it more difficult to reclaim that water 
and to reuse it downstream and other approaches because water 
is increasingly scarce in some parts of the country.
    Senator Inhofe. Well, next time you are here in Washington 
come by, and we can visit. You probably noticed a few minutes 
ago Ruth Van Mark who was with me 20-some years ago when you 
were still with me; she is still in probation, but she is still 
with me. So, I look forward to having a chance to visit with 
you.
    Mr. Grumbles. Thank you very much.
    Senator Lautenberg. Thanks, Senator Inhofe.
    Senator Inhofe and I have an interesting relationship. It 
is with respect and admiration and disagreement.
    [Laughter.]
    Senator Lautenberg. We have overcome the disagreement side 
to have, generally, a good opportunity for an exchange of views 
and differences of opinion. And they are widely respected.
    So, Mr. Grumbles, how tough was it to get away from Senator 
Inhofe?
    [Laugher.]
    Senator Lautenberg. Oh, I am sorry.
    [Laugher.]
    Senator Lautenberg. Anyway, one of the things that we talk 
about, and you note in your testimony, how scarce water is in 
Arizona. So, therefore, virtually every drop has to have a 
quality about it that is safe while being readily available.
    Is it fair to say that if there is an inherently safer 
technology that there would be an urgency to getting it in 
place before a system is interrupted and dangerous, obviously, 
for the communities that do tend to cluster, I think, near the 
water supply?
    Mr. Grumbles. Well, Senator, I think the goal of inherently 
safer is right on. The key is how is that implemented and at 
the local level what options are available that are safer and 
also practical, affordable, and doable?
    I know one of the--some of the communities across the 
country--and I can say specifically in Arizona--are weighing 
whether to move to alternatives to gaseous chlorine such as 
onsite generation of hypochlorite. And one of the questions is 
how much--what is the energy footprint of that? It can require 
more energy to generate hypochlorite onsite. That does not mean 
that it will not be the method chosen.
    But it can be, as I am learning in Arizona, the energy-
water nexus is so important that the utilities practitioners, 
the officials there, need to be asking what is safer, what 
meets the Safe Drinking Water Act or Clean Water Act mandates, 
and what also, what can our ratepayers afford? And energy is 
increasingly expensive. So, you have to look at that part of 
the equation as well.
    Senator Lautenberg. Oh, I am sure that is so. But I think 
wherever possible effectiveness and costs, all of these things 
have to be taken into consideration. But even beyond those 
factors are, what is the security? What are the protections 
that we have? There, again, people in your State are so 
committed to preserving water supplies that disruptions would 
be----
    Mr. Grumbles. Well, and the concept of vulnerability 
assessments and updating those is critically important because 
we, as a State, are vulnerable. Our future sustainability is at 
stake if we do not have clean and safe water supplies. So, I 
support you in your efforts, your goal of bringing people 
together to find practical and meaningful progress.
    Senator Lautenberg. We are going to try.
    Mr. Perea, the Act, the bill that we have developed, gives 
States authority to require utilities to implement safer 
technology when it is cost effective, feasible, and allows 
continued compliance with water quality standards. Might there 
be jobs created by requiring these changes and making more jobs 
available if they are, if the water supply is available and we 
know that it is clean and safe?
    Mr. Perea. Yes, Senator, I think it is a complex question 
with a lot of implications. I think as community water systems 
look to make upgrades, whether it be for water quality reasons 
or safety and security measures, it requires a level of 
training, a level of upgrading, if you will, and there is a 
stimulation effect in that, including the providers of 
equipment, whether it be onsite systems or other technologies 
or equipment or services that are used to provide those. So, I 
do believe there is a positive economic effect. It does entail 
change.
    Senator Lautenberg. Over 500 water facilities have switched 
to safer methods, but at least 2,600 water facilities still use 
large amounts of chlorine gas and other toxic gaseous 
chemicals. Why have so few facilities converted to safer 
technology, do you think?
    Mr. Perea. I am speculating, obviously, since I have not 
surveyed these. But I think that the rate of change in 
utilities and public drinking water systems can be slow and is 
often driven by compliance, not by innovation certainly and not 
by cost savings or other motivations.
    My experience has been that those that have had near 
accidents--or near misses rather--with their chemicals have 
been amongst the first to look seriously. And I think those who 
have looked seriously have found that there are cost savings 
that can be realized. And most often when communities get to 
that stage there is a very high rate of conversion to safer 
alternatives. But I do not think it is on most communities' 
radar screens.
    Senator Lautenberg. Mr. Orum, what do you think about that?
    Mr. Orum. I have spoken with many facilities that have 
converted, and almost always they are very proud of what they 
have achieved and very relieved that the chlorine gas is no 
longer there.
    On the other side, though, sometimes facilities have used 
chlorine gas for a long time without an incident. And these are 
low probability-high consequence events that are very hard for 
facilities to make a priority before they happen.
    One facility told me that they have used chlorine gas since 
1915 without an incident. They were bringing it in by rail. 
Unfortunately, current regulations encourage that shifting of 
risk onto the rails. There are about 35 water utilities that 
still use chlorine gas by rail. And so our laws also encourage 
and perpetuate hazards in cases where they really do not need 
to exist.
    Senator Lautenberg. Mr. Grumbles, in your written testimony 
you say that decisions on these chemicals at individual sites 
are best made by utility experts, that Congress should simply 
``provide direction.' Do I understand correctly? Because that 
sounds like the same voluntary approach that has allowed 2,600 
facilities to continue to use lethal chlorine gas when safer 
alternatives are available.
    Why should States not be able to require utilities to take 
reasonable, cost effective steps to protect communities who are 
near water facilities?
    Mr. Grumbles. Senator, I think Congress should provide 
direction and support for a range of different strategies and 
tactics to move beyond the status quo to increase the security 
of water and wastewater systems.
    When it comes to mandating inherently safer technologies I 
think it should be made primarily by the utility, and I think 
at the State level. I think that is preferred to the Federal 
level, making a choice or review of what size fits, and I think 
that it gets very difficult and complex, and there can be 
tradeoffs that are lost in the mix when it is decided 
ultimately at the Federal level what a particular utility 
should do.
    I think the key is to emphasize focus on the local level 
decision, but hold them accountable and make sure that they are 
looking at the range of factors.
    Senator Lautenberg. At what point does risk take over other 
parts of the decisionmaking? Is there a point in time, a 
vulnerability age of the structure, et cetera?
    Mr. Grumbles. I think these are questions that are all 
about risk and risk management. I think it is important not to 
be taking tools off the table necessarily from the Federal 
level, but to be encouraging cleaner and safer practices and 
approaches that result in cleaner and safer product, the water.
    I think that the progress that has been made since the 2002 
Bioterrorism Act--one of the real steps that I know you should 
be proud of is that local utilities and those in the water 
sector are taking it very seriously and training themselves and 
getting EPA and DHS support for ways to better identify and 
characterize the risks and to manage them.
    And when it comes to what choice of chemicals or treatment 
practices I think it needs to be very careful that it is done 
on a local and regional basis.
    Senator Lautenberg. But the State agencies have an 
important role to play in this decision?
    Mr. Grumbles. Yes, sir.
    Senator Lautenberg. Mr. Orum, opponents have argued that 
switching to safer alternatives could be too costly, even 
though studies found the annual costs to be less than $1.50 per 
customer. Now, what is a bigger threat to our society, 
requiring cost effective safer alternatives or release of 
chlorine gas which is so lethal?
    Mr. Orum. I do not know of any macro studies comparing the 
cost of prevention to response, but I think it is safe to say 
that $1.50 per customer per year, which is the upper end of 
converting a big city water utility off chlorine gas, is a much 
better deal than $7 billion in damages, which the insurance 
industry says could result from a worst case release. 
Certainly, just look at the Gulf oil spill where billions are 
being spent to clean up a problem that could have been 
prevented for a fraction of the cost.
    The Association of American Railroads always reminds us 
that toxic inhalation hazard chemicals account for one-quarter 
of 1 percent of their cargo, yet are the bulk of their 
liability costs and potentially ruinous liability. And 35 or so 
water utilities, as I noted, still use chlorine gas by the 
railcar.
    Dr. Sivin mentioned a report by Management Information 
Services showing 8,000 jobs created as a result of the House 
Bill. Clorox plans to eliminate all of its bulk chlorine use at 
all of its bleach plants around the country at no loss of jobs. 
In comparison New York City spent almost--said it had almost 
$94 billion worth of economic cost in the first year alone 
after 9/11. I think it really just boils down to an ounce of 
prevention being worth a pound of cure.
    Senator Lautenberg. Dr. Sivin, what, how about the people 
who are manning these stations and are concerned about or 
connected with the transportation of chlorine gas? What are 
they saying? They do not want their jobs at risk but nor do 
they want their lives at risk with their families. Can an 
inherently safer technology provide the security for them and 
maintain it? Is there a job shift at all that takes place with 
any of these facilities, to your knowledge, that have made the 
change?
    Mr. Sivin. No, we do not, we have not seen one. In general, 
when a facility invests, we invest in place. It tends to 
protect jobs. Bringing new investment into a facility tends to 
provide job security to its employees.
    We also think, in the case of water treatment facilities, 
as I mentioned, there is not much risk of a job loss because a 
water treatment facility is attached to a community. It cannot 
go elsewhere. They tend to be public facilities. They tend to 
be tax supported. Where is a water treatment facility going to 
go? And if one went somewhere else, that community would have 
to create new jobs by bringing in a new one.
    It is not--we simply do not perceive that as much of a 
risk, and even if the argument is that they would have to spend 
money on something else, first of all, as Mr. Orum pointed out, 
in most cases it is not much less money and in some cases there 
is actually a long-term savings, so there is actually more 
money available to expand, hire more employees, whatever the 
case may be. And there is also Federal assistance in the 
various pieces of legislation out there to assist facilities.
    So, we think all of that information together supports the 
conclusion of MISI that it is likely to add jobs.
    Senator Lautenberg. Well, I want to say thank you to each 
of you for your contribution as we conduct our research on 
where to go, what to add to our legislation or change, we will 
come up with something that we would be happy to have your 
testimony or suggestions on.
    If there are questions by any member of this Committee who 
have yet to ask them and they submit the question to you in 
writing, we would ask for as quick a response as you can give 
us. And we thank you.
    This Committee is adjourned. Thank you.
    [Whereupon, at 4 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
                       <all>
</pre></body></html>
